Case: 19-35297, 07/21/2020, ID: 11760060, DktEntry: 19-1, Page 1 of 3

FILED

NOT FOR PUBLICATION

JUL 21 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
PETER J. MCDANIELS,

No.

Plaintiff-Appellant,

U.S. COURT OF APPEALS

19-35297

D.C. No. 3:17-cv-05801-RBL

v.

MEMORANDUM*
KATHLEEN PREITO, Call out Clerk;
MARCIA MCCORMICK, Job Coordinator;
GARY BOHAN, CPM,
Defendants-Appellees.
Appeal from the United States District Court
for the Western District of Washington
Ronald B. Leighton, District Judge, Presiding
Submitted July 17, 2020**

Before: O’SCANNLAIN, TROTT, and N.R. SMITH, Circuit Judges.
Peter McDaniels appeals from summary judgment on his 42 U.S.C. § 1983
claims of retaliation in violation of the First Amendment, discrimination in violation
of the Equal Protection Clause, and a conspiracy in violation of 42 U.S.C. §§ 1985,

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 19-35297, 07/21/2020, ID: 11760060, DktEntry: 19-1, Page 2 of 3

1986. The facts are known to the parties, and we do not repeat them here.
I
The district court correctly granted the prison officials’ motion for summary
judgment on McDaniels’s claims of a “spree” of retaliation for conduct protected by
the First Amendment. McDaniels’s speculative and conclusory descriptions fail to
raise a triable issue of the officials’ motives when they denied Clerk Pool privileges,
required pat searches, confronted him over non-compliance with the escort policy,
cited him for an infraction, and, ultimately, terminated him. See Wood v. Yordy, 753
F.3d 899, 905 (9th Cir. 2014). The timing of the incidents is at best circumstantial
evidence of motive and does not demonstrate motive on its own. See Pratt v.
Rowland, 65 F.3d 802, 808 (9th Cir. 1995).
Furthermore, McDaniels fails to cite specific facts raising a triable issue as to
whether either the escort policy or Marcia McCormick and Kathleen Preito’s
recording of their perceptions of a confrontation with McDaniels in an Observation
Report did not reasonably advance the legitimate correctional goals of security and
discipline. See Rhodes v. Robinson, 408 F.3d 559, 568 (9th Cir. 2005); Barnett v.
Centoni, 31 F.3d 813, 816 (9th Cir. 1994) (per curiam).
II
The district court rightly concluded that McDaniels failed to raise a triable
issue of an Equal Protection violation. McDaniels’s “class of one” theory fails at

2

Case: 19-35297, 07/21/2020, ID: 11760060, DktEntry: 19-1, Page 3 of 3

summary judgment because he is unable to offer specific facts establishing that other
prisoners had a similar disciplinary history, establishing that other prisoners
continued to work in the Clerk Pool after prison staff discovered that their job
screenings did not permit such employment, or that his termination lacked a rational
basis. See Vill. of Willowbrook v. Olech, 528 U.S. 562, 564 (2000).
Ill
The district court properly concluded that McDaniels failed to raise a triable
issue of a 42 U.S.C. §§ 1985, 1986 violation. “[T]he absence of any actionable
constitutional violation negates by definition the existence of a conspiracy to violate
constitutional rights.” San Diego Police Officers’ Ass ’n v. San Diego City Emps. ’
Retirement Sys., 568 F.3d 725, 740 (9th Cir. 2009).
AFFIRMED.

3

Case: 19-35297, 09/16/2020, ID: 11825795, DktEntry: 25, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

SEP 16 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

PETER J. MCDANIELS,
Plaintiff-Appellant,
v.

KATHLEEN PREITO, Call out Clerk; et al.,

No.

19-35297

D.C. No. 3:17-cv-05801-RBL
Western District of Washington,
Tacoma
ORDER

Defendants-Appellees.
Before: O’SCANNLAIN, TROTT, and N.R. SMITH, Circuit Judges.
The panel has voted unanimously to deny the petition for rehearing. The
petition for rehearing is DENIED.

Case 3:17-cv-05801-RBL Document 73

Filed 04/05/19

Page 1 of 1

1
2
3
4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

5
6
7
8

PETER J MCDANIELS
No. 3:17-cv-05801 -RBL-DWC
Plaintiff,
ORDER ADOPTING REPORT AND
RECOMMENDATION

v.

9
KATHLEEN PREITO, et al.,
10

Defendants.

11
12

The Court, having reviewed the Report and Recommendation of Magistrate Judge David

13

W. Christel, objections to the Report and Recommendation, if any, and the remaining record,

14

does hereby find and ORDER:

15

0)

The Court adopts the Report and Recommendation.

(2)

Defendants’ Motion for Summary Judgment (Dkt. 47) is granted, and Plaintiffs
claims are dismissed with prejudice.

(3)

Plaintiffs in forma pauperis status will continue on appeal.

(4)

The Clerk is directed to send copies of this Order to Plaintiff, counsel for
Defendants, and to the Hon. David W. Christel.

16
17
18

19
20
21
22

DATED this 5th day of April, 2019.

23
24
25

Ronald B. Leighton
United States District Judge

26
ORDER ADOPTING REPORT AND RECOMMENDATION- 1

